Memorandum from the Office of the Inspector General



April 9, 2010

William R. McCollum, Jr., LP 6A-C

REQUEST FOR FINAL ACTION – AUDIT 2009-12291-01 – REVIEW OF POSTPONED
AND CANCELLED CAPITAL PROJECTS – NUCLEAR POWER GROUP



Attached is the subject final report for your review and final action. Planned actions
addressing the findings in this report were provided during the review and incorporated in
the report. Please notify us within one year from the date of this memorandum when final
action is complete.

If you have any questions, please contact Amy R. Rush, Senior Auditor, at (865) 633-7361
or Lisa H. Hammer, Director, Financial and Operational Audits, at (865) 633-7342. We
appreciate the courtesy and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ARR:JP
Attachment
cc (Attachment):
      Suzanne W. Barels, LP 1G-C
      Don L. Frank, BR 3A-C
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Scott D. Self, MR 6D-C
      Joyce L. Shaffer, WT 9B-K
      Preston D. Swafford, LP 3R-C
      John M. Thomas III, MR 3S 120
      OIG File No. 2009-12291-01
        
 


                                      Audit Report
 
Office
      of the Inspector General                                      

                                 To the Chief Operating Officer
                                  
                                                                    

                                                                    

 

 

 

 

 

 
REVIEW OF POSTPONED
 

AND CANCELLED
CAPITAL PROJECTS –
NUCLEAR POWER GROUP
 




 

 
 
 

 Audit Team                                    Audit 2009-12291-01
Amy R. Rush                                            April 9, 2010
Stephanie M. Broome
Noel K. Kawado
Jamie M. Wykle 
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 3

FINDINGS ......................................................................................................... 4

   APPROVAL OF PROJECTS ............................................................................ 5

   COMMUNICATION OF PROJECT STATUS ....................................................5

   MONITORING OF PROJECTS ........................................................................ 7

RECOMMENDATIONS .................................................................................. 9




Audit 2009-12291-01
Office of the Inspector General                                           Audit Report


EXECUTIVE SUMMARY
As part of our annual audit plan, we reviewed the process for postponing and
cancelling nuclear capital projects. Our audit objectives were to determine
whether fiscal years 2007 and 2008 project postponements and cancellations
were (1) properly approved, (2) effectively communicated, and (3) monitored to
prevent inappropriate charges.

Our review specifically focused on the processes for Nuclear Power Group
(NPG), Power System Operations, Fossil Power Group, and River Operations.
Due to the unique aspects of each of these organizations, we will issue a
separate report on each organization. This report addresses the process for the
NPG.

Based on our review, we determined that NPG's postponed and cancelled
projects were approved by the appropriate levels of authority, contained a capital
classification designated by Fixed Asset Accounting (FAA), and that justifications
for postponing and/or cancelling projects were valid.

However, we noted control weaknesses that could allow business units to
manipulate project costs in order to meet budget goals. Specifically,
communication and monitoring controls were not adequately designed to mitigate
the risk that project costs were (1) appropriately and accurately charged to the
projects, (2) appropriately classified as capital costs rather than operations and
maintenance (O&M) costs, and (3) accurately and timely communicated for
recording on the financial statements. We determined:

   Communication by NPG to FAA of one project cancellation occurred prior to
    the approval of that cancellation.
   One project cancellation was not communicated to FAA within the required
    time frame.
   No reviews independent of NPG project management were performed to
    determine whether costs were appropriately and accurately charged to
    projects.
   No criteria existed defining the process and requirement for (1) allocating
    capital and O&M costs to a project, (2) allocating costs among projects, and
    (3) borrowing funds from other projects.
   Project documentation was not retained in accordance with retention
    guidelines.

We recommended the Chief Nuclear Officer and Executive Vice President,
Nuclear Generation, in conjunction with other organizations:

   Develop and implement a process for approving project cancellations prior to
    their communication to FAA and Business Services.
Audit 2009-12291-01                                                            Page i
Office of the Inspector General                                             Audit Report


   Develop and implement criteria related to project cancellations including time
    requirements for communication of project cancellations to FAA and Business
    Services.
   Establish a specified location for retaining project documentation, including
    Change Control Board and Project Approval Board meeting minutes as well
    as business plans, and ensure that documentation is retained per the
    retention gudelines.
 Implement an independent review process to monitor project costs to
    determine whether costs charged to the project are appropriate and
    consistent with the project's accounting classification.
   Develop and implement criteria to define the process and requirements for
    the (1) allocation of capital and O&M costs to a project, (2) allocation of costs
    among projects, and (3) borrowing of funds from other projects.

We communicated our findings and recommendations to NPG personnel, who
provided informal comments and planned actions addressing these findings.
Their planned actions are incorporated within this report.




Audit 2009-12291-01                                                              Page ii
Office of the Inspector General                                                                   Audit Report


BACKGROUND
Each year, the Tennessee Valley Authority (TVA) initiates a wide variety of
capital and operations and maintenance (O&M) projects. In that regard, TVA's
project justification process is designed to ensure that such projects are aligned
with TVA's vision, goals, and strategic plan objectives. As defined by TVA's
Standard Programs and Processes (SPP) 2.1: Project Justification Process,1 the
process consists of identifying project initiatives, coordinating and completing
project reviews, receiving funding, approving projects, and executing projects
which include project postponement, cancellation, and closure. Projects are
initiated, owned, managed, and executed by the respective Strategic Business
Unit (SBU).

According to TVA's Capitalization policy, projects are classified as capital if they
result in the creation of new assets, the replacement of existing assets, or the
removal of existing assets. Projects are considered O&M if they repair, restore,
test, inspect, or assess existing assets. In addition, any capital project that is
cancelled should be reclassified as an O&M project and project costs expensed.
Fixed Asset Accounting (FAA) personnel are responsible for determining the
proper accounting classification for all projects under consideration for
capitalization.

Capital projects greater than $250,000 are required to be entered as stand-alone
projects in the Project Justification System (PJS), which serves as the official
database containing project data and project approval status.2 Depending on the
cost and type of the project, there can be multiple levels of project approval.
Projects less than or equal to $250,000 are grouped together and entered into
the PJS as a "bucket." Projects are classified as one of three categories:

     Strategic – Projects initiated or sanctioned by the Board or management with
      costs greater than $8 million.
     Base – Projects specific to an SBU to maintain its mission with costs less
      than or equal to $8 million.
     Discretionary – Projects classified as Economic/Revenue, Capacity Growth,
      and Reimbursable.

Occasionally projects may require a revision to change the project scope or
priority and may need to be suspended, accelerated, or deferred.3 When such a
change occurs, the respective SBU must ensure the project change process is

1
    During the review, SPP-2.1 was being revised to update the project authorization matrix. We used the
    latest approved revision for this testing.
2
    According to Chief Financial Officer (CFO) personnel, PJS is a stand-alone application and is not linked to
    TVA's general ledger application.
3
    According to CFO personnel, project postponements or deferrals include projects where the in-service
    date (ISD) has been extended past the original planned ISD. During the period of postponement, costs
    may still be incurred, and work may still be performed on the project.
Audit 2009-12291-01                                                                                     Page 1
Office of the Inspector General                                                                   Audit Report


followed and adequately documented. Specifically, the SBU is required to
(1) initiate a revised Project Justification (PJ) form with an explanation for the
change and identification of the impacts on the project cost, schedule, scope,
and/or benefits, (2) coordinate appropriate reviews for revisions to projects, and
(3) update the Five-Year Project Plan.4

Depending on the project cost, projects are required to have various levels of
approval. Nuclear Power Group (NPG) has a Change Control Board (CCB) for
each site and a Project Approval Board (PAB), which are responsible for
reviewing and approving projects and project revisions. The CCB consists of the
Site Vice President (VP) or Plant Manager, Site Project Manager, various other
project management including the Site Engineering and Support Manager,
Maintenance and Modifications Manager, Operations Manager, Modifications
Manager, Design Engineering Manager, System Engineering Manager, Radcon
Superintendent, Outage and Scheduling Manager, a Business Services
representative, and the Assistant Plant Manager. The CCB is responsible for
approving all projects, project placeholders,5 and revisions to projects. The PAB
consists of the Senior VP, Nuclear Projects Manager, NPG VPs, and the
Business and Projects Services Manager. The PAB is responsible for approving
strategic projects and base and discretionary projects, including project revisions,
and those having revisions greater than $2 million. In addition, both CCB and
PAB have administrator roles responsible for the tracking of project approval
status, preparing meeting minutes, and publishing the minutes for the members.

Once projects are approved, a project manager is responsible for ensuring the
project is completed to implement the approved scope at the lowest possible cost
within the approved budget and on schedule. A Project Control Specialist (PCS)
is responsible for working with the project managers to monitor project costs and
to ensure that approval meetings are held, appropriate project approvals are
obtained, and project cost codes are initiated within the general ledger system.

We determined there were a total of 589 postponed capital projects and
87 cancelled capital projects in fiscal years (FY) 2007 and 2008, as shown in
Table 1. Of those totals, NPG had 80 postponed and 3 cancelled projects. As of
FY 2008, NPG projects deemed as postponed had a total requested budget and
total expenditures of approximately $2.6 billion and $134 million, respectively.
NPG-cancelled projects had a total requested budget of $8.5 million and no total
expenditures as of FY 2008. 6




4
    The Five-Year Project Plan is a "living" document comprising the current list of projects maintained as the
    SBU's funded and prioritized projects currently being implemented or planning to be implemented.
5
    Projects identified in the SBU Performance Plans and Long-Range Financial Plans that require funding
    beyond the Five-Year Project Plan.
6
    Requested budget totals were obtained from PJS project documentation, and expenditures were obtained
    from FAA. These totals do not include "bucket" projects.
Audit 2009-12291-01                                                                                     Page 2
Office of the Inspector General                                                                      Audit Report


                                                        Postponed                 Cancelled
                                                         Projects                  Projects
              Fossil Power Group                             232 79
             Nuclear Power Group                              80                        3
           Power Supply Operations                           233 4
                River Operations                              32 1
                        Other                                 12 0
                                          Total              589                       87
                                                                                             Table 1



OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our annual audit plan, we reviewed the process for postponing and
cancelling nuclear capital projects. Our audit objectives were to determine
whether FYs 2007 and 2008 project postponements and cancellations were
(1) properly approved, (2) effectively communicated, and (3) monitored to
prevent inappropriate charges. Approval, communication, and monitoring of
projects are essential for ensuring that TVA's project portfolio provides the
maximum benefit to meet TVA's goals and strategic plan.

Our review specifically focused on the processes for NPG, Power System
Operations, Fossil Power Group, and River Operations. Due to the unique
aspects of each of these organizations, we will issue a separate report on each
organization. This report focuses on the processes for NPG. To achieve our
objectives, we:

     Reviewed relevant policies and procedures governing the approval,
      communication, and monitoring of NPG capital projects, including
      SPP-2.1: Project Justification Process, and TVA Nuclear Business
      Practice (BP) 205: Project Justification and Implementation Process.
     Interviewed NPG Project Management including PCS personnel, the Project
      Finance Specialist responsible for the PJS, NPG Controller personnel, and
      FAA personnel.
     Identified 80 postponed7 and 3 cancelled nuclear projects in FYs 2007 and
      2008.
     Selected a statistical sample8 of 24 postponed projects and a judgmental
      sample of 4 postponed projects and 1 cancelled project. Specifically, we
      selected 7 postponed and 1 cancelled Browns Ferry Nuclear (BFN) projects,
      11 postponed Sequoyah Nuclear (SQN) projects, and 10 postponed Watts Bar
      Nuclear (WBN) projects.

7
    Postponed projects are defined as projects having an in-service date deferred to a later date.
8
    For projects selected in the samples, we reviewed all revisions within scope for the project.
Audit 2009-12291-01                                                                                       Page 3
Office of the Inspector General                                           Audit Report


   Obtained and reviewed project documentation including PJ forms, Five-Year
    Project Plans, Capital Reporting Summaries, CCB meeting minutes, PAB
    approval packages, and year-to-date cost information.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Although we did not test for
compliance with laws and regulations, nothing came to our attention during the
audit that indicated noncompliance with laws and regulations.


FINDINGS
We determined the postponed and cancelled capital projects reviewed were
approved by the appropriate levels of authority, contained a capital classification
designated by FAA, and that justifications for postponing and/or cancelling
projects were valid.

However, we noted control weaknesses that could allow business units to
manipulate project costs in order to meet budget goals. Specifically,
communication and monitoring controls were not adequately designed to mitigate
the risk that project costs were (1) appropriately and accurately charged to the
projects, (2) appropriately classified as capital costs rather than O&M costs, and
(3) accurately and timely communicated for recording on the financial
statements. We determined:

   Communication by NPG to FAA of one project cancellation occurred prior to
    the approval of that cancellation.
   One project cancellation was not communicated to FAA within the required
    time frame.
   No reviews independent of NPG project management were performed to
    determine whether costs were appropriately and accurately charged to
    projects.
   No criteria existed defining the process and requirement for (1) allocating
    capital and O&M costs to a project, (2) allocating costs among projects, and
    (3) borrowing funds from other projects.
   Project documentation was not retained in accordance with retention
    guidelines.




Audit 2009-12291-01                                                            Page 4
Office of the Inspector General                                                                 Audit Report


APPROVAL OF PROJECTS
According to TVA's SPP-2.1: Project Justification Process, each SBU is required
to obtain approval as defined in the Project Authorization Matrix for funded
projects and project revisions meeting certain criteria. Project approval is
required to be documented on the PJ form. We selected a sample of 29 projects
(28 postponed and 1 cancelled) and reviewed the PJS documentation for each
project. We verified that all projects were approved by the appropriate
groups/individuals in accordance with SPP-2.1 and contained a capital
classification designated by FAA.9 However, we noted that one cancelled project
had a cancellation date of June 1, 2007, which was six days prior to the receipt of
the June 7, 2007, SBU approval for cancellation and approximately six months
prior to the receipt of the Project Management Council cancellation approval
dated December 12, 2007. According to NPG project management personnel,
NPG's BP-205 is to be revised to include specific requirements and time frames
for project cancellations as far as time frames for completing required forms and
sequence and level of required approvals.

In addition, during our interviews with NPG project management, we noted that
after projects have initially been approved, project revisions are almost always
approved even if personnel are not pleased with the proposed revision.

COMMUNICATION OF PROJECT STATUS
To facilitate project tracking, project status must be communicated by NPG
project management to FAA and Business Services. Specifically, projects having
a cancelled status should be communicated to FAA and Business Services to
ensure accuracy and timeliness of financial reporting. According to FAA process
documentation and the Controller's Web site, communication of project status to
FAA includes the submission of Form 4013, Capital Projects Completion/
Cancellation Notice, for projects that are cancelled. Project cancellation status
must also be submitted to Business Services since that organization is currently
responsible for writing off project costs. However, requirements for
communicating this information to FAA and/or Business Services are not
specified in SPP-2.1 or BP-205.

Project status must also be communicated by NPG project management to
internal project personnel to better facilitate project management.
Communication of project status within the organization occurs informally with
the exception of communication through CCB and PAB meeting minutes and the
Five-Year Project Plan. The SBU is required per BP-205 to retain the CCB
meeting minutes a minimum of two years. In addition, SPP-2.1 requires that
project status be updated on the Five-Year Project Plan.


9
    We did not test the accuracy of FAA's classification during this review. We relied on procedures
    performed in the Office of the Inspector General Audit 2009-12429 where no exceptions were identified in
    our testing of FAA financial reporting controls related to the capital classification of projects.
Audit 2009-12291-01                                                                                  Page 5
Office of the Inspector General                                         Audit Report


Communication to FAA and Business Services
We obtained project communication from FAA for the sampled cancelled project
and determined that communication to FAA was not timely. According to FAA,
Form 4013 projects are required to be submitted to FAA no later than ten
business days after the cancellation date. We noted the one cancelled project
had a cancellation date of June 1, 2007, however, Form 4013 was not sent to
FAA until June 29, 2007, or 28 days after the project was cancelled. We verified
there were no project costs associated with this project; therefore, it was not
necessary to obtain documentation from Business Services.

According to FAA personnel, there have been instances in which a business unit
submitted Form 4013 and documented that costs have been expensed.
However, FAA has subsequently found that, in some cases, the costs were not
expensed. As previously stated, NPG project management personnel stated
NPG's BP-205 will be revised to include specific requirements and time frames
for project cancellations as far as time frames for completing required forms and
sequence and level of required approvals.

Communication Within NPG
We requested CCB meeting minutes for the 29 sampled projects and were not
provided CCB meeting minutes for 11 projects. Seven of these projects (one
BFN cancelled project; four SQN and two WBN postponed projects) were within
the two-year minimum retention time frame required by BP-205. In addition, we
determined that CCB meeting minutes provided for one WBN project were dated
after the PAB meeting minutes provided for the same project. According to
BP-205, CCB meetings are held prior to PAB meetings.

PAB meeting minutes were not provided for 14 of the sampled postponed
projects. Specifically, we did not receive PAB meeting minutes for two BFN
projects, five SQN projects, and seven WBN projects. We also identified two
BFN projects that were not tracked on the Five-Year Project Plan. According to
BFN project management:

   One project was considered part of another project which was being tracked
    on the Five-Year Project Plan. However, SPP-2.1 requires funded projects to
    be tracked on an individual basis.
   The second project was a Board-approved project which was considered an
    expedited project and therefore did not need to be tracked. However,
    according to SPP-2.1, expedited projects are required to be tracked on the
    Five-Year Project Plan.

NPG project management informed us that, in the future, CCB and PAB meeting
minutes, as well as other project-related documentation and retention
requirements, will be located in a password-protected location on the NPG
shared drive.


Audit 2009-12291-01                                                          Page 6
Office of the Inspector General                                                                Audit Report


Based on discussions with project personnel and the review of project
documentation, we determined that each of the sampled projects had been
postponed or cancelled for valid reasons. Reasons for postponing or cancelling
projects included deferrals due to outage schedules, deferrals due to priority
adjustments, and cancellation due to the lack of economic payback on the
project.

MONITORING OF PROJECTS
According to TVA's Capitalization policy, FAA is responsible for determining the
proper accounting classification for all projects under consideration for
capitalization. According to FAA personnel, the project classification allows the
SBU to charge appropriate costs related to the project as either capital or O&M,
depending on the project classification. Specifically, if a project is designated as
"capital," by FAA, it is the responsibility of the project manager to ensure only
capital-type costs10 are capitalized. Similarly, only noncapital costs should be
charged to O&M. Any capital project that is cancelled should be reclassified as
an O&M project and project costs expensed.

According to the PCS at each site,11 project costs are monitored by the PCS to
ensure that other organizations do not erroneously charge costs to the projects.
At all sites, project costs are compared to the project control budget to determine
whether there are variances that require explanation. We determined there was
no review performed, independent of the SBU, to verify the appropriateness of
costs charged to the project. According to project management, once a project is
classified as either capital or O&M, costs can be charged to a project even
though the nature of those costs is not consistent with the project's accounting
classification. Without detailed reviews of project costs, the NPG SBU in
essence relies on its employees who charge costs to its capital projects to
determine whether costs are appropriately capital or O&M.

In addition, project management informed us that cancellation of projects may be
delayed because of the impact on the current year's budget. Specifically, when
projects are cancelled, all project costs incurred are expensed in the current
period. Furthermore, during FYs 2007 and 2008, one of the SBU's performance
indicators incentivized lower overall O&M expenses. The lack of an independent
review of detailed project costs could allow SBUs to manipulate project costs to
achieve relevant performance goals. Specifically, without adequate oversight
and review, SBUs could (1) charge true O&M costs to capital projects in an effort
to reduce overall O&M expenses or (2) continue working an existing project in an
effort to avoid having project costs expensed in the current year and an improved
performance indicator. NPG Projects personnel stated they will work with
Nuclear Business Services to develop a process for reviewing project costs to
ensure costs are appropriately charged on a periodic basis.
10
   Capital costs are costs incurred on the purchase of land, buildings, construction, and equipment needed
   to bring a project to a commercially operable status.
11
   The PCS position at WBN is currently vacant; however, the SQN PCS assists on an as-needed basis.
Audit 2009-12291-01                                                                                  Page 7
Office of the Inspector General                                           Audit Report


We reviewed a selection of capital costs for the sampled postponed projects and
determined there were charges made to the project which could be potential
O&M expenses. We identified:

   Three projects, including one BFN project and two SQN projects, contained
    computer hardware purchases for items, such as desktops, laptops, and
    monitors and computer software purchased for flowcharting and project
    management. According to BFN project management, the (1) IT hardware
    was purchased specifically to handle the significant temporary workforce
    involved in the preparation and execution of the project, and (2) flowcharting
    and project management software was purchased for the project manager
    who was dedicated to the project.
    We were informed by NPG project management that SQN purchases
    included two pieces of software bought for individuals working on the project.
    According to NPG project management, there is no general O&M budget for
    project management personnel; therefore, the project short code was
    provided for the charges.
   One BFN project contained office supply expenses totaling approximately
    $30,000. According to BFN project management, expenditures for office
    supplies, primarily for paper/copier supplies, were used to support the project
    implementation.
   One BFN project contained training and travel costs charged in FY 2007 for
    two individuals to attend a Large Electric Motor Users Group (LEMUG)
    conference. The same project was charged for the same two individuals to
    attend the LEMUG conference in FY 2008. According to BFN project
    management, the LEMUG is a users group that meets twice a year. The
    conference benefited the attendees since there are currently several motor
    replacement projects at BFN.

According to FAA personnel, items such as laptops and desktops would typically
not be capitalized unless the item was purchased solely for one project. In
addition, FAA personnel stated that projects having both capital and O&M costs
would need to be entered separately in the current general ledger system.
However, this is not included in SPP-2.1, BP-205, or TVA's Capitalization policy.

During the review of project costs, we noted there were two practices occurring
for which there is no criterion. Specifically, we identified:

   Three BFN projects in which travel costs were split among projects.
    According to project management, if there are common costs that need to be
    allocated among projects, then a determination is made, on an ad hoc basis,
    as to the percentage of costs to be charged to each project.

   One SQN project in which funds were borrowed from a "bucket" project to be
    replenished at a later date with project savings or salvage credits. Based on
    interviews with SBU personnel, we noted there were differing practices with
Audit 2009-12291-01                                                            Page 8
Office of the Inspector General                                             Audit Report


    regard to borrowing funds from bucket projects. According to project
    management at BFN, funding for bucket projects cannot be used to fund
    ongoing capital projects, while project management at SQN has the flexibility
    to move funds among projects as needed based on the needs of the plant as
    long as annual budgets are maintained. We were informed this has been a
    common practice for the past 20 years. According to project management at
    WBN, there is discretion to move funds as necessary; however, it is up to the
    CCB and site VP to approve the funding.

The lack of criterion related to the distribution of project costs among projects
could allow the SBU to manipulate project costs to meet budget goals. In
addition, the lack of criterion related to borrowing funds from other projects and
later replenishing those funds could cause inconsistency in the practices at each
of the sites. According to NPG project management, NPG Projects will obtain
guidance from Fixed Assets on cost allocations between O&M and capital
projects and incorporate guidance in BP-205 or related Project procedures. Also,
allocation of costs between projects and borrowing funds from other projects will
be addressed.


RECOMMENDATIONS
We recommended the Chief Nuclear Officer and Executive Vice President,
Nuclear Generation, in conjunction with other organizations:

   Develop and implement a process for approving project cancellations prior to
    their communication to FAA and Business Services.
   Develop and implement criteria related to project cancellations including time
    requirements for communication of project cancellations to FAA and Business
    Services.
   Establish a specified location for retaining project documentation, including
    Change Control Board and Project Approval Board meeting minutes as well
    as business plans, and ensure that documentation is retained per the
    retention guidelines.
 Implement an independent review process to monitor project costs to
    determine whether costs charged to the project are appropriate and
    consistent with the project's accounting classification.
   Develop and implement criteria to define the process and requirements for
    the (1) allocation of capital and O&M costs to a project, (2) allocation of costs
    among projects, and (3) borrowing of funds from other projects.

We communicated our findings and recommendations to NPG personnel, who
provided informal comments and planned actions addressing these findings.
Their planned actions are incorporated within this report.

Audit 2009-12291-01                                                              Page 9
